OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation




AUDIT OF THE GEORGIA
REGIONAL DEVELOPMENT
FUND
AUDIT REPORT NO. M-000-09-006-P
September 30, 2009




WASHINGTON, DC
Office of Inspector G


Office of Inspector General for the
Millennium Challenge Corporation



September 30, 2009

Mr. Darius Mans
Acting Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Mans:

This letter transmits the Office of Inspector General’s final report on the Audit of the Georgia
Regional Development Fund. In finalizing the report, we considered your written comments to
our draft report and included those comments in their entirety in Appendix II of this report.

The report contains eight recommendations for corrective action. We consider final action taken
on recommendation 2 and management decisions on recommendations 3, 4, 6, and 7. A
management decision is still pending on recommendations 1, 5, and 8.

Please provide my office written notice within 30 days of any additional information related to
the actions planned or taken to implement recommendations 1, 5, and 8.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation


Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 5

Is the Georgia Regional Development Fund accomplishing its intended purpose of
maximizing development impact, as well as earning a reasonable and positive financial
return from investments in small and medium enterprises in agribusiness, tourism and
other sectors, primarily outside of Tbilisi? ......................................................................... 5

           The GRDF Needs a Clearly Defined
           Objective and Measures of
           Performance Against Its Objective ........................................................................ 7

           Strengthened Policy and Procedures and
           Documented Actions Needed for Portfolio
           Company Due Diligence........................................................................................ 9

           Environmental Oversight and Management of Risks
           Needs to Be Improved......................................................................................... 11

           Intent of Fund Not Achieved with an Investment................................................. 14

           Other Issues ........................................................................................................ 15

Evaluation of Management Comments ....................................................................... 17

Appendix I – Scope and Methodology ........................................................................ 19

Appendix II – Management Comments ....................................................................... 20

Appendix III – Summary of GRDF Investment Portfolio ............................................ 25

Appendix IV – Summary of GRDF Investments ......................................................... 26

Appendix V – Photographs of GRDF Investment Impacts ........................................ 27
SUMMARY OF RESULTS
The September 12, 2005, compact between the Millennium Challenge Corporation
(MCC) and the Government of Georgia established the Georgia Regional Development
Fund (GRDF) to provide access to long term risk capital on viable terms and develop
management skills in small and medium enterprises. The compact provided $30 million
in committed capital for investment in enterprises and $2 million for technical assistance.
The primary objective of the GRDF is to maximize development impact, as well as to
earn a reasonable and positive financial return, from investments in small and medium
enterprises in agribusiness, tourism, and other sectors, primarily outside of Tbilisi,
Georgia’s capital city (see page 5). The fund has a 10-year life beginning on November
28, 2006, and ending on April 7, 2016, with an initial 5-year investment period ending on
April 7, 2011. The ending balance in the fund will be provided to a charitable
organization in Georgia. A professional Fund Manager, hired on December 4, 2006,
through a competitive bidding process, identifies potential investments, conducts due
diligence on prospective companies, and makes recommendations to the board of
directors. The board of directors, an independent body, has overall authority and
discretion for the management of the fund. The fund has disbursed $16.45 million of
$17.3 million for the eight approved investments, as of March 31, 2009, of $30 million in
committed capital (see page 5). The fund provided technical assistance to two
companies during 2007 and one company during 2008 with total technical assistance
expenditures of about $129,000 (see page 16).

The objective of the audit was to determine whether the GRDF is accomplishing its
intended purpose, that is, to maximize development impact, as well as earn a
reasonable and positive financial return from investments in small and medium
enterprises outside of Tbilisi (see page 5). The audit results showed that the GRDF was
pursuing its intended purpose of investing in small and medium enterprises in rural
Georgia to foster development and earn a positive financial return. However, the Office
of Inspector General (OIG) believes that development impact is being sacrificed in the
pursuit of higher financial returns by the Fund Manager because of the structure of the
compensation in the Fund Management Agreement (see page 5). In terms of one
measure of development impact—jobs creation—there may be significantly fewer
beneficiaries of the investments than originally planned. Originally, there were to be
4,400 GRDF beneficiaries after 5 years and 6,600 were to benefit after 10 years. The
Fund Manager and Millennium Challenge Georgia (MCG) have acknowledged that
achieving this number of beneficiaries is currently unrealistic. Further, the expected
return by the Fund Manager for its eight investments averaged about 34 percent.
According to the Fund Manager and the experience of other enterprise funds, the return
of the committed capital is the typical financial return expectation for enterprise funds.
The Fund Manager explained that because of the high cost of operating the GRDF
returns above 20 percent are necessary to achieve an upper single digit return (see
page 8).

Currently, the impact of the fund’s investments is being realized at the firm level. The
fund made the majority of its investments during the fourth quarter 2008 and these were
being used by the firms to increase capacity and improve their operations. The
investments in firms ranged from $1.5 million to $3 million, and the funds have been
used to purchase equipment and renovate facilities (see page 5).


                                                                                         1
Even so, the audit team identified a number of problems with the implementation of the
program in Georgia. The objective of the program—maximizing development impact
and earning a positive and reasonable financial return—was not clearly defined and
MCC did not have targets in place to measure performance against the program’s
objective (see page 6). Also, the due diligence performed by the Fund Manager was not
always supported as to the nature and extent of work done on portfolio companies,
including character and environmental due diligence and antiterrorism vetting of potential
investees, so that the OIG could independently verify these efforts (see page 9). Also,
proper precautions were not being taken in handling asbestos roofing and its disposition
at facilities being renovated by an investee (see page 11). Finally, one investment did
not meet the intent of the fund to provide risk capital to firms otherwise unable to obtain
funding (see page 14).

This report contains eight recommendations to MCC’s vice president, Department of
Compact Implementation: (1) define development impact and reasonable financial
return and develop specific measures and targets for use in evaluating the GRDF’s
performance against its primary objective (see page 9); (2) justify the Fund Manager’s
existing compensation arrangement (see page 9); (3) require that the Fund Manager
develop policy and procedures for conducting character due diligence for each investee
and for documenting the results of the character due diligence (see page 11); (4) provide
the Fund Manager with current MCC guidance on vetting of individuals and
organizations receiving U.S. taxpayer funding (see page 11); (5) require that the Fund
Manager identify and document the environmental laws and regulations relevant to the
investments (see page 11); (6) require that the Fund Manager review its loan
agreements with investees and specify actions in the agreements with regard to the
asbestos (see page 13); (7) require periodic environmental reviews by MCG of the
GRDF’s investments and ensure that environmental audits are done when required (see
page 13); and (8) revise the Fund Management Agreement Investment Policy Guidelines
to include guidelines preventing investments in investees with resources to fund their
own projects (see page 15).

Appendix II contains the management comments in their entirety. In its response, MCC
agreed with four of the eight recommendations in the draft report (Recommendation
Nos. 3, 4, 6, and 7), disagreed with three of the recommendations (Recommendation
Nos. 1, 2, and 5), and chose not to make a management decision on one
recommendation pending further research (Recommendation No. 8). The OIG believes
that Recommendation Nos. 1 and 5 are still valid: MCC needs a clearly defined
objective for the GRDF and measures of performance against its objective and the Fund
Manager needs to identify and document environmental laws, regulations, and
requirements relevant to the investments. For Recommendation No. 2, MCC did not
agree with the recommendation. MCC cited a 2005 memorandum that it provided to the
OIG after the completion of the audit work which analyzed the Fund Manager’s
compensation. The OIG reviewed the memorandum and concluded that it meets the
intent of the recommendation. As the OIG has received documentation to support the
Fund Manager’s compensation, it considers that a management decision was made and
final action taken on the recommendation.
BACKGROUND
In 1989, the U.S. authorized enterprise funds as an experimental model to support
private sector development in selected countries of central and eastern Europe as they
transitioned from centrally planned to market-oriented economies. The funds, which are
private, nonprofit U.S. corporations, are supposed to make loans and equity investments
in small and medium enterprises in which other financial institutions are reluctant to
invest. 1

The Millennium Challenge Corporation (MCC) compact with the Government of Georgia,
dated September 12, 2005, created the Georgia Regional Development Fund (GRDF), a
$30 million independently managed enterprise fund to provide long-term risk capital to
small and medium enterprises primarily in regions outside Tbilisi, the capital of Georgia,
and devoted an additional $2 million in technical assistance to improve the business
operations of the investees. The primary objective of the fund is to maximize
development impact, as well as earn a reasonable and positive financial return from
investments in small and medium enterprises in agribusiness, tourism, and other
sectors.

A board of directors composed of two Georgian and three non-Georgian nationals with
investment and/or development experience has overall authority and discretion for the
management of the fund. The board of directors is an independent body. A professional
Fund Manager hired on December 4, 2006, through a competitive bidding process,
identifies potential investments, conducts due diligence on prospective companies, and
makes recommendations to the board of directors. The Fund Manager develops
Investment Proposal Memorandums documenting its due diligence on potential
investees and provides them to the board for decision-making purposes. These
memorandums summarize the proposed investment structure and investee information
such as financial history, financial projections, products and production, and market and
industry analysis. When identifying potential portfolio companies, the Fund Manager is
responsible for complying with the requirements in the Fund Management Agreement,
including geographical restrictions, targeted sectors and business activities,
organizational form, size standards for permitted investments, and fund investment
amounts. After the investment occurs, the Fund Manager monitors portfolio company
performance and periodically reports portfolio results.


AUDIT OBJECTIVE
The Office of the Assistant Inspector General for the MCC conducted this audit as part of
its fiscal year 2008 audit plan. 2 The objective of this audit was to answer the following
question:



1
  Enterprise Funds’ Contributions to Private Sector Development Vary, GAO/NSIAD-99-221,
September 1999.
2
  The audit of MCC’s program in Georgia was postponed until fiscal year 2009 because of the
Georgia-Russia conflict of August 2008.


                                                                                              3
   •   Is the Georgia Regional Development Fund accomplishing its intended purpose
       of maximizing development impact, as well as earning a reasonable and positive
       financial return from investments in small and medium enterprises in
       agribusiness, tourism, and other sectors, primarily outside of Tbilisi?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    4
AUDIT FINDINGS
Is the Georgia Regional Development Fund accomplishing its
intended purpose of maximizing development impact, as well as
earning a reasonable and positive financial return from
investments in small and medium enterprises in agribusiness,
tourism, and other sectors, primarily outside of Tbilisi?
The Georgia Regional Development Fund (GRDF) was pursuing its intended purpose of
investing in small and medium enterprises in rural Georgia to foster development and
earn a positive financial return. However, we believe that maximizing development
impact may be being sacrificed in the pursuit of higher financial returns, especially in
light of the incentivized compensation arrangement with the Fund Manager. Under this
arrangement, the Fund Manager receives a fixed payment during the first 5 years of the
contract, and during the second 5 years receives no fixed payment, but instead receives
20 percent of the fund’s profits. The Fund Manager may also be eligible for a bonus
payment during a three-year period based on performance. In an explanation of the
fund’s objective, the Millennium Challenge Corporation (MCC) stated it should not have
used the term maximizing in describing the fund’s objective because maximizing cannot
be measured. Further, it has been acknowledged by the Fund Manager that the twin
goals of development impact and financial return may not be compatible and that tough
choices will have to be made. As discussed later in the report, the Fund Manager has
not been provided guidance from MCC as how to balance development impact and
financial return.

In addition, the Fund, which has a 10-year life, has disbursed $16.45 million and
approved investments of $17.3 million, or 58 percent, of its $30 million in committed
capital with 7 years remaining, as of March 31, 2009. Therefore, whether the fund
accomplishes its objective and the actual financial return to the fund will not be known
until the end of its 10-year life. 3 The fund currently is in year 3 of its 5-year investment
phase and has made eight investments, with six of these in agribusiness and tourism
which were identified as targeted sectors during the compact development process. 4

Currently, the impact of the fund’s investments is being realized at the firm level. 5 The
fund made the majority of its investments during the fourth quarter of 2008 and these
were being used by the firms to increase capacity and improve their operations. The
investments in firms ranged from $1.5 million to $3 million and the funds have been used
to purchase equipment and renovate facilities as confirmed by Office of Inspector
3
  The ending balance of the GRDF will be provided to a charitable organization in Georgia.
4
  Two investments, while permitted by the Fund Management Agreement’s Investment Policy
Guidelines, were not in these targeted sectors.
5
  The fund was designed to provide firm-level assistance in the targeted sectors because they
contribute significantly to the Georgian economy, especially in impoverished rural areas, and are
traditional industries in which capacity could be improved. The premise of firm-level assistance is
that by selecting firms with high potential for revenue growth, benefits such as job creation and
poverty reduction will result over time. The fund was not designed to significantly change the
enabling environment of the businesses, such as working with government bodies on changes in
laws and regulations, but to work within the existing framework.


                                                                                                 5
General (OIG) site visits to six of the firms (documented photographically in appendix V
of the report).

However, in terms of one measure of development impact—jobs creation—there may be
significantly fewer beneficiaries of the investments than originally envisioned. Originally,
the compact envisioned that there would be 4,400 GRDF beneficiaries after 5 years and
6,600 beneficiaries after 10 years. The beneficiaries were to include an increased
number of employees and suppliers resulting from investments in portfolio companies.
The Fund Manager and the Millennium Challenge Georgia Fund (MCG) have
acknowledged that achieving this number of beneficiaries is currently unrealistic.

The development impact and the financial return of the GRDF are affected by the design
of the fund’s investment guidelines and fund management expenses, both of which are
discussed below, and external factors, such as the Georgia-Russia conflict, civil unrest
following the conflict, and the global financial crisis.

The Investment Policy Guidelines established parameters for permitted investments and
prescribed that investments were to be made, for instance, primarily in businesses
located outside of Tbilisi, in targeted sectors of agribusiness and tourism, in existing
rather than start-up businesses, and in specific sizes of businesses based on revenues
and employment, and established a maximum investment size per investee. These
guidelines were established to mitigate risk to the GRDF based upon experiences of
previous enterprise funds, according to MCC. While the parameters mitigate certain
identified risk, they also may result in other risks, such as less diversification in the Fund
Manager’s portfolio. As a case in point, the August 2008 Georgia-Russia conflict
significantly decreased tourism which has yet to recover. Such prescriptive investment
parameters may also have resulted in missed opportunities that could have had a
greater development impact in Georgia.

Finally, as a means of measuring management efficiency, we also examined the fund’s
operating expenses as a percentage of committed capital. A U.S. Government
Accountability Office (GAO) study on enterprise funds found that operating expenses as
a percentage of committed capital averaged 2.8 percent, with the ratio higher during the
early years of a fund because of start-up costs, and lower than 2 percent during the last
few years of a fund’s life. The GRDF’s operating expenses are higher than those
historically experienced by the funds in the GAO report. These higher than average
historic operating expenses reduced the available capital and net financial return to the
GRDF.

We noted a number of deficiencies with the design and implementation of the GRDF
where improvements can be made as detailed in the following sections. MCC needs to:

   •   clearly define the objective and measures of performance of the GRDF against
       its objective,
   •   strengthen policy and procedures and document due diligence of portfolio
       companies,
   •   improve environmental oversight and management of risks, and
   •   revise investment policy guidelines to ensure that the intent of the fund is
       achieved.




                                                                                            6
In addition, we noted other issues regarding the complexity of the bonus calculation for
the Fund Manager, the reliability or objectivity of monitoring indicators, and the pace in
which technical assistance is being provided to portfolio companies.


The GRDF Needs
a Clearly Defined Objective
and Measures of Performance
Against Its Objective


    Summary: The GRDF’s primary objective of maximizing development impact and
    earning a reasonable and positive financial return was not clearly defined by MCC.
    The GAO’s Standards for Internal Control in the Federal Government establishes
    that performance measures are necessary to help ensure that management’s
    objectives are being achieved. A clearly defined objective would set the expectations
    for the fund’s achievements and guide the Fund Manager in its selection of portfolio
    companies and is necessary to help ensure that management’s objectives are being
    achieved. The MCC is relying on the incentives built into the Fund Manager’s
    compensation as the means for determining the investments that meet the fund’s
    primary objective. However, the Fund Manager’s compensation is mostly driven by
    the financial success of the portfolio companies and not necessarily development
    impact, leaving discretion to the Fund Manager on how to achieve MCC’s goal.

MCC’s compact established that the primary objective of the GRDF is to maximize
development impact, as well as to earn a reasonable and positive financial return from
investments in small and medium enterprises in agribusiness, tourism and other sectors,
primarily outside of Tbilisi. The fund will be considered successful if it achieves this
objective. Also, the Fund Management Agreement, Section 3.3, states that “While
financial returns on each investment will be considered . . . the principal purpose of the
Fund is to have a significant development impact on SMEs [small and medium
enterprises] in agribusiness, tourism, and other industries in Georgia in areas outside
Tbilisi.” However, neither the fund documents nor officials at MCC, MCG, or the Fund
Manager defined maximizing development impact or reasonable financial return and the
specific measures to be used so that the fund’s success could be measured on both an
interim and final basis against the objective. In explaining the GRDF’s objective, MCC
stated that development impact will follow from making sound investments and that it
should not have used the term “maximizing” in the describing the fund’s objective
because maximizing cannot be measured. Further, balancing the twin goals of
maximizing development impact and earning a reasonable financial return was also not
defined: given that these goals may not be synchronous, development impact could
suffer in pursuit of financial return. 6


6
 It should be noted that there are certain measures for the GRDF’s performance, but these measures were
not specifically linked or defined as the fund’s stated primary objective. These measures include (1) Fund
Management Agreement’s Development Return, a multi-use measure for identifying eligible portfolio
companies, portfolio company performance, and Fund Manager bonus; and (2) MCC monitoring indicators
and targets for certain GRDF activities. The Development Return measures are nearly identical to the MCC
monitoring measures and include gross wages of the investee, wages paid by the investee, taxes paid by


                                                                                                        7
The GAO’s Standards for Internal Control in the Federal Government establishes that
performance measures are necessary to help ensure that management’s objectives are
being achieved. In the case of the GRDF, a clearly defined objective would set the
expectations for the fund’s achievements and guide the Fund Manager in its selection of
portfolio companies to maximize development impact while earning a reasonable return.

MCC is relying on the incentivized compensation arrangement to achieve the fund’s twin
goals of maximizing development impact and earning a reasonable and positive financial
return. The GRDF is being viewed as successful by the Fund Manager, MCG, and MCC
in terms of financial success—the financial return on the contributed capital invested in
the portfolio companies. The eight portfolio company investments are expected to
provide on average a 34 percent return based on the financial projections used to make
the investment decisions. These returns will be the basis for the Fund Manager’s
compensation during the final 5 years of the GRDF when it will receive 20 percent of
GRDF’s profits. According to the Fund Manager and the experience of other enterprise
funds, the return of committed capital is the typical financial return expectation for
enterprise funds.

Also, the Fund Manager explained that because of the high cost of operating the GRDF,
returns above 20 percent are necessary to achieve an upper single digit return. The
Fund Manager attributed the higher operating expenses to the administrative resources
needed to comply with the many requirements established in the Fund Management
Agreement. The operating expenses for the GRDF Fund Manager are higher than those
historically experienced by enterprise funds reported in the previously mentioned GAO
report. During 2007, the Fund Manager’s operating expenses were about 78 percent of
the invested capital; this was the first year of operations, when operations were being
established and limited investments were made. For 2008, operating expenses were
about 12 percent of invested capital as the expenses remained about the same but
investments increased significantly. Based on budgeted operating expenses and
assuming investment of all committed capital, the operating expenses will be about 4.7
percent for 2009. The bulk of the operating expenses were for the Fund Manager’s fixed
compensation arrangement which remains in place during the first 5 years of the fund’s
10-year life. The Fund Manager also has potential additional earnings up to $250,000 in
bonuses per year during a three-year period. During the second 5 years, the Fund
Manager will receive a percentage of the profit returned to the fund by the portfolio
companies so the expense ratio may be dissimilar.

By not clearly defining development impact and reasonable financial return, MCC cannot
be assured that the GRDF is achieving its objective of maximizing development impact
while earning a reasonable financial return. This insufficient definition provides the Fund



the investee, and aggregate value of goods and services purchased by the investee that originated in
Georgia. MCC has stated that the Development Return does not equate with development impact.

Also, each of the Investment Proposal Memorandums prepared by the Fund Manager for review and
approval by the GRDF’s Board of Directors includes a discussion of potential development impact it sees
with the proposed investment, such as first mover into an underserved market, revitalization of an industry,
or a demonstration effect, but again these measures were not specifically defined as the measures of
development impact in terms of the objective.




                                                                                                          8
Manager much discretion in determining how to best maximize development impact
through the investment process as well as the reasonableness of the rate of return.

       Recommendation No. 1: We recommend that the Millennium Challenge
       Corporation’s vice president, Department of Compact Implementation, define
       development impact and reasonable financial return and develop specific
       measures and targets for use in evaluating the Georgia Regional Development
       Fund’s performance against its primary objective.

       Recommendation No. 2: We recommend that the Millennium Challenge
       Corporation’s vice president, Department of Compact Implementation, develop
       and document a justification for the existing compensation arrangement with the
       Fund Manager.


Strengthened Policy and Procedures
and Documented Actions Needed for
Portfolio Company Due Diligence

    Summary: The Fund Manager of the GRDF did not always have supporting
    documentation on the nature and the extent of the work done during its due diligence
    of portfolio companies, including character and environmental due diligence and
    antiterrorism vetting of potential investees. The GAO’s Standards for Internal Control
    in the Federal Government establishes that recording transactions and appropriately
    documenting them are necessary to help ensure that management’s objectives are
    being achieved. The Fund Manager did not document these work activities because it
    was not contractually required to do so. As such, verification of the Fund Manager’s
    actions cannot be conducted without documentation supporting its actions. Further,
    the risk exists that insufficient analysis and monitoring was done when conducting
    environmental and character due diligence and antiterrorism vetting, potentially
    resulting in ineligible investees receiving funding, risk to the program’s success, and
    investees not complying with all environmental laws, regulations, and rules.

The Fund Manager’s files did not always provide support as to the nature and extent of
work done to arrive at the Investment Proposal Memorandums which are used by the
GRDF board of directors in evaluating potential investments. 7 For instance, the files did
not show the nature and extent of the character due diligence that was conducted on the
potential investees. 8 In discussion with another donor organization, character risk was
identified as a high risk area worthy of substantial review. Due diligence documents


7
  The Fund Manager documents the totality of its due diligence work for a particular investee in the
Investment Proposal Memorandum. The document provides extensive information on the investee,
including ownership and management, use of funds and investment structure, historical business description
and historical financials, financial projections, investment return sensitivity analysis, and market and industry
analysis. In addition, the Investment Proposal Memorandum includes the Environmental Compliance and
Due Diligence Summary, the Investment Approval and Compliance Checklist with the Fund Management
Agreement, Fund Manager internal policy on conflict of interest, and the executive order on terrorism.
8
  Character due diligence is the process undertaken to vet individuals to ensure that they have a high
reputation.


                                                                                                               9
showed that lawsuits and violations at the company level were checked, but it did not
show the work done at the director, officer, and senior management levels.

In addition, the files did not show the nature and extent of work done with regard to
antiterrorism vetting although the Investment Proposal Memorandums stated that the
required vetting lists were checked and the annual report stated that the Fund Manager
conducted initial and post-investment monitoring. It should be noted that the lists
required to be checked as part of the Fund Management Agreement, dated December 4,
2006, differ from the MCC current requirements that were implemented in response to a
prior OIG report on the Audit of Compliance with Procurement Requirements by the
Millennium Challenge Corporation and Its Compact Countries, M-000-008-02-P, dated
March 3, 2008.

In addition, an Investment Proposal Memorandum stated that the Fund Manager visited
an investee’s production facility and discussed with the investee environmental policy
and the need to comply with local laws and regulations related to environmental and
social issues. However, a review of the files did not show that the Fund Manager
identified all relevant laws, regulations, and requirements for its use in monitoring
investee compliance with them.

The GAO’s Standards for Internal Control in the Federal Government establishes that
recording transactions and events accurately and timely, and appropriately documenting
the transactions are necessary to help ensure that management’s objectives are being
achieved. These control activities provide evidence of execution of these activities as
well as appropriate documentation for verification.

The Fund Management Agreement provides guidance on vetting of potential investees
and compliance with environmental guidelines. Specifically, the Fund Management
Agreement states in Section 3.3 (a), Investment Process, that the “Fund Manager will
use reasonable best efforts to identify and present to the Board suitable investments that
meet the Investment Policy Guidelines . . . .” Section 10.1(m) states “The Fund Manager
shall not provide material support or resources directly or indirectly to, or knowingly
permit MCC funding to be transferred to, any individual, corporation, or other entity that it
knows or has reason to know, commits, attempts to commit, advocates, facilitates, or
participates in any terrorist activity . . . .” Section 10.1(n) states “The Fund Manager
shall verify, or cause to be verified, appropriately any Person with access to, or which
receives, funds paid to, by, or on behalf of the Fund or the Fund Manager, which
verification may include verifying if such name appears on applicable watch lists such as
the lists maintained on www.epls.gov and the other lists . . . The Fund Manager shall (A)
conduct monitoring to comply with this paragraph on at least a quarterly basis, or on
such other reasonable periodic basis as MCG or MCC may request from time to time,
and (B) deliver a report of such periodic monitoring to MCG with a copy to MCC.”

Regarding environmental compliance, the Fund Management Agreement states in
Section 3.2 that “All Fund investment . . . must comply with MCC Environment
Guidelines . . . .” Further, the Investment Policy Guidelines state that “. . . the Fund
Manager shall develop the Fund Environmental Procedures and incorporate them into
the Fund’s investment appraisal and monitoring processes, as contemplated by Section
3.2 of the Fund Management Agreement, to ensure such compliance.”




                                                                                          10
The Fund Manager explained that its contract did not require that it document all of its
actions taken as part of the due diligence process. The Fund Manager’s actions cannot
be verified because of limited documentation with regard to compliance with laws,
regulations, and rules pertaining to character and environmental due diligence and
monitoring. As such, the OIG has no assurance as to nature and extent of the work
done by the Fund Manager. The risk exists that insufficient analysis and monitoring was
done when conducting environmental and character due diligence and antiterrorism
vetting, potentially resulting in ineligible investees receiving funding, risk to the program’s
success, and investees not complying with all environmental laws, regulations, and
rules.


    Recommendation No. 3: We recommend that the Millennium Challenge
    Corporation’s vice president, Department of Compact Implementation, require
    that the Fund Manager develop policy and procedures for conducting character
    due diligence for each investee and for documenting the results of the character
    due diligence.

    Recommendation No. 4: We recommend that the Millennium Challenge
    Corporation’s vice president, Department of Compact Implementation, provide
    the Fund Manager with current Millennium Challenge Corporation guidance on
    vetting of individuals and organizations receiving United States taxpayer
    funding.

    Recommendation No. 5: We recommend that the Millennium Challenge
    Corporation’s vice president, Department of Compact Implementation, require
    that the Fund Manager identify and document the environmental laws,
    regulations, and requirements relevant to the investments.



Environmental Oversight and
Management of Risks
Needs to Be Improved
 Summary: Asbestos, a hazardous material commonly used in roofing material in
 Georgia, was being removed from one investee’s building during renovations funded
 by the GRDF and reused by local villagers. Health and safety standards suggest that
 hazardous materials be properly handled and disposed of to prevent illness. A
 number of factors contributed to the situation, including the fact that the loan
 agreement between the Fund Manager and investee did not contain a provision like
 other investee loan agreements that required compliance with certain health and
 safety provisions, otherwise a major breach of the agreement would result. In
 addition, because the GRDF is independent of the MCG, the Fund Manager is
 primarily responsible for environmental management and oversight, not MCG. But an
 increased role by MCG in oversight could have helped to ensure the proper
 management of this hazardous material.            In addition, the Fund Manager’s
 Environmental Procedures requires that an environmental audit be conducted if
 asbestos is identified: however, one was not performed. An audit may also have
 aided in highlighting the issue and required a mitigation plan. As a result, this health
 hazard is perpetuated and may open the GRDF to legal liability.


                                                                                            11
                                                                       Asbestos,      a     hazardous
                                                                       material commonly used in
                                                                       roofing in Georgia, was found
                                                                       at two of the six investment
                                                                       sites during the OIG’s audit. 9
                                                                       It has been common practice
                                                                       in Georgia to maintain the
                                                                       asbestos in situ, but when it is
                                                                       disturbed    it    results    in
                                                                       additional hazards. In fact, at
                                                                       one site, asbestos roofing
                                                                       was being removed from one
                                                                       of the investee’s buildings
                                                                       during renovations and local
                                                                       villagers were reusing the
                                                                       material for their homes and
                                                                       farms,     compounding      the
                                                                       problem.

                                                      Although the Fund Manager,
Photograph of farm building under renovation with asbestos
roofing being replaced.      Photograph taken by OIG auditor
                                                      MCC, MCG, and the investee
during a site visit outside of Tbilisi, May 2009.     were aware of the presence
                                                      of asbestos and periodic site
visits were being conducted by the Fund Manager, weaknesses in the oversight process
resulted in the investee mishandling the asbestos.

For other investee loan agreements, the Fund Manager has required that health and
safety issues be addressed in a specified manner, otherwise the investee would be in
major breach of the loan agreement and incur penalties. In this instance, the loan
agreement with the investee did not have a similar control. In addition, although MCC
and MCG have direct oversight authority and responsibility over their programs and
implementing partners, the GRDF was designed to be an independent program and
overseen by its own board of directors. 10 As a result, the Fund Manager is primarily
responsible for oversight and monitoring of the Fund’s activities.

In addition, the Fund Manager Environmental Procedures states in Section 4.2(e) “an
Environmental audit is required (2) if preliminary information suggest there may be
significant historical pollution due to previous site use or if asbestos, PCBs
[polychlorinated biphenyls], and other hazardous materials are present.” Although
asbestos was identified, the Fund Manager did not do an environmental audit.
9
   The Occupational Safety and Health Administration (OSHA) has found that the inhalation of asbestos
fibers can cause serious disease of the lung and other organs that may not appear until years after the
exposure has occurred. Asbestos is toxic and inhalation of it may cause illness such as malignant
mesothelioma and lung cancer. As a result of the dangers of asbestos, U.S. OSHA standards state that
when asbestos-containing materials, such as roofing materials containing asbestos, are removed,
employers are generally required to conduct daily air quality monitoring for worker safety. In addition, OSHA
states that when employees are exposed to airborne concentrations of asbestos that exceed permitted
exposure limits, employers must provide protecting clothing, protective equipment, and training to
employees.
10
   A former MCG Chief Executive Officer wanted to be directly involved in the implementation of the fund, but
MCG officials advocated the fund’s independence.


                                                                                                         12
Unless mitigated, the improper removal and disposition of the asbestos will perpetuate
this health hazard to handlers of this material. Further, it could create a financial liability
in terms of legal action against the GRDF.

    Recommendation No. 6: We recommend that the Millennium Challenge
    Corporation’s vice president, Department of Compact Implementation, require
    that the Fund Manager review its loan agreements with investees and specify
    actions in the agreements with regard to the asbestos.

    Recommendation No. 7: We recommend that the Millennium Challenge
    Corporation’s vice president, Department of Compact Implementation, require
    periodic environmental reviews by Millennium Challenge Georgia of the Georgia
    Regional Development Fund’s investments and ensure that environmental
    audits are done when required.




                                                                                            13
Intent of Fund Not Achieved
with an Investment
 Summary: The GRDF is to assist small and medium enterprises that otherwise would
 not have access to capital; however, the fund loaned $1.8 million to an investee for a
 hotel chain that not only had the resources to fund the investment, but also was
 approved for a $2 million dollar loan from a Georgian bank. The Fund Management
 Agreement’s Investment Policy Guidelines did not require the Fund Manager to take
 into account the investee’s resources or other businesses in the decision making
 process. As a result, the GRDF is not meeting the intended purpose for which the
 fund was designed with this investment.

The intent of the GRDF is to provide
funding to small and medium
enterprises to which banks and other
donors are less willing to lend. In
March 2008, the GRDF approved a
$1.8 million investment in a Georgian
hotel chain. Although the investment
was within the parameters of the
general investment guidelines, the
investee not only had the resources
to fund the project, but also had an
existing relationship and a line of
credit from the largest commercial
bank in Georgia. For example, the
investee stated that without the $1.8
million GRDF investment, funding
would come from their other
company and the commercial bank
already approved a loan for $2
million for the hotel chain.
                                        Rendering of one of the projects planned by the real
The investee is part owner of a estate development firm, including high rise
leading commercial and residential buildings,          summer     and    winter gardens,
real estate development firm in playgrounds, sports facilities, and a four-storied
Georgia that has implemented 20 shopping center. Rendering taken from real estate
                                          development website, August 2009.
major projects, with 50 projects
currently under operation. In 2006,
the company held 35 percent of the
supply and 60 percent of sales in Georgia’s $500 million real estate market, according to
the Fund Manager. Some examples of the projects are (1) 17 story building on the
seashore with hotel type small, medium, and large apartments with recreational indoor
and outdoor areas and hotel services; (2) climatic health resort with spa using well-
known mineral water; and (3) residential complex with four 10 story buildings furnished
with playgrounds and sports facilities. In addition, the investee describes the Georgian
hotel chain as a new brand of the development group, and as a project under the real
estate development group.




                                                                                          14
The GRDF was designed to address some of the key constraints to enterprise
development by improving access to capital for small and medium enterprises. Due
diligence conducted by MCC during compact development showed that small and
medium enterprises had difficulty obtaining the risk capital they needed in order to grow
their business in Georgia. Further, it showed that the banking sector was strong, but
was limited in capacity and willingness to lend to small and medium enterprises.

                                          The Fund Management Agreement’s Investment
                                          Policy Guidelines did not require the Fund
                                          Manager to take into account the investee’s
                                          resources or other businesses. Specifically, the
                                          Fund Management Investment Policy Guidelines
                                          states the Fund should not be used to invest in a
                                          business with annual revenue of $5 million or
                                          more, and only requires legal subsidiaries to be
                                          considered with the investee. However, the hotel
                                          chain, although not a subsidiary of the real estate
                                          development company, is closely related and is
                                          described as a project under the company. By
                                          investing in this hotel chain, the fund is creating
Photograph of an ongoing project by       an appearance that U.S. taxpayer dollars are
the real estate development firm in the
same city as the GRDF-financed hotel.
                                          being used to fund an investee whose company
Photograph taken by OIG auditor, May      has 35 percent of Georgia’s real estate market.
2009.

    Recommendation No. 8: We recommend that the Millennium Challenge
    Corporation's vice president, Department of Compact Implementation, revise the
    Fund Management Agreement Investment Policy Guidelines to include
    guidelines preventing investments in investees with resources to fund their own
    projects.



Other Issues

We also identified other issues while conducting our audit which we wanted to bring to
management’s attention for its consideration and disposition. The issues included the
bonus calculation for the fund manager’s compensation, the monitoring indicators for the
GRDF, and the use of technical assistance.


   •   Bonus Calculation. In our discussions with the Fund Manager and a board
       member each found that the bonus calculation methodology was unnecessarily
       complicated and required an inordinate amount of time to perform. Each
       suggested that a simpler method should be devised to reward the Fund
       Manager’s performance. The Fund Management Agreement provides that the
       Fund Manager may receive an annual performance bonus from 2008 to 2011 up
       to $250,000. The bonus is based upon the degree to which the fund exceeds
       projections in three performance categories for the year: (1) projected
       Developmental Return, (2) aggregate projected investee revenues, and (3)



                                                                                          15
         projected fund capital to be invested. The Developmental Return is calculated by
         four subcategories, including the gross revenues of the investee, wages paid by
         the investee, taxes paid by the investee, and the aggregate value of goods and
         services purchased by the investee that originated in Georgia. Each of these
         subcategories receives a weighting at the beginning of the performance period.
         Further, the Fund Management Agreement provides detailed calculations
         involving converting the dollar projections into scores, calculating the bonus
         hurdle rate, 11 and arriving at the number of bonus points.


     •   Indicator. The GRDF has five outcome indicators used to measure its
         performance. Two of the five indicators may not be reliable or objective. Using
         U.S. Agency for International Development’s (USAID) seven criteria for
         assessing performance measures, the OIG found that the two indicators
         requiring information about local suppliers may be subjective. These two
         indicators are “Increase in Local Suppliers to the Portfolio Companies” and
         “Increase in Locally Sourced Goods and Services Purchased by the Portfolio
         Companies.” For example, if the product is made outside of Georgia, but brought
         to Georgia to be assembled or sold, it is unclear whether this product would be
         classified as being locally supplied.


     •   Technical Assistance. The fund provided assistance to two companies during
         2007 and one company during 2008 with total technical assistance expenditures
         of about $129,000. Of the $2 million available for technical assistance, only
         about 6 percent has been expended over 3 years and technical assistance is
         available to firms only during the first 5 years of the fund. The purpose of
         technical assistance is to improve the operations of the companies such as
         modernizing accounting systems, business development such as assessing the
         marketplace, and enhancing development impact. Development impact technical
         assistance is to enhance the nature, scope, or sustainability of development
         impact on stakeholders, such as employees, suppliers, and customers.




11
  The annual performance bonus for each bonus year is based on the degree to which the fund exceeds a
specified percentage (the Bonus Hurdle Rate) of projections established for a bonus year.


                                                                                                   16
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments to our draft
report that are included in their entirety in Appendix II. In its response, MCC agreed with
four of the eight recommendations in the draft report, disagreed with three of the
recommendations, and chose not to make a management decision on one
recommendation pending further research.
In response to Recommendation No. 1, MCC did not agree with the recommendation.
MCC’s position is that it implicitly defined the “development impact” of the Georgia
Regional Development Fund (GRDF) and cited specific measures and targets used to
monitor the fund’s performance. However, the specific measures and targets cited by
MCC constitute the “developmental return” indicators established in the Fund
Management Agreement. When starting its audit work, the OIG requested that MCC
define the objective of the GRDF and MCC stated that the developmental return did not
necessarily equate to development impact and also stated that development impact and
financial return can only be accurately measured at the conclusion of the GRDF’s life.
MCC did not address from the OIG’s recommendation that it define “reasonable financial
return.”
The OIG believes that Recommendation No. 1 is still a valid recommendation because
as we stated in our finding, MCC needs a clearly defined objective for the GRDF and
measures of performance against its objective. MCC is relying on the Fund Manager as
the means for determining the investments that meet the fund’s primary objective. Our
concern is that the compensation arrangement which is mostly driven by the financial
success of the portfolio companies and not necessarily maximizing development impact
leaves much discretion to the Fund Manager on how to achieve MCC’s goal. Because
the OIG did not agree with MCC’s proposed corrective action which we believe does not
address maximizing developmental impact, a management decision was not reached.
For Recommendation No. 2, MCC did not agree with the recommendation. MCC cited a
2005 memorandum that it provided to the OIG after the completion of the audit work
which analyzed the Fund Manager’s compensation.           The OIG reviewed the
memorandum and concluded that it meets the intent of the recommendation. As the
OIG has received documentation to support the Fund Manager’s compensation, it
considers that a management decision was made and final action taken on the
recommendation.
For Recommendation No. 3, MCC agreed with the recommendation and will work with
the Millennium Challenge Georgia Fund (MCG) and the Fund Manager to strengthen
existing procedures to include enhanced documentation of the character due diligence
conducted by the Fund Manager as part of its due diligence and on-going antiterrorism
procedures. The procedures will be put in place by the end of October 2009. The OIG
considers that a management decision was made.
For Recommendation No. 4, MCC agreed with the recommendation and will forward
guidance to the Fund Manager by September 30, 2009, on vetting of individuals and
organizations receiving U.S. taxpayer funding. The OIG considers that a management
decision was made.


                                                                                        17
For Recommendation No. 5, MCC did not agree with the recommendation. MCC’s
position is that the Fund Manager makes a reasonable effort to understand the local
regulatory environment and its approach is consistent with best practices in fund
environmental management.      MCC concluded that the OIG’s recommendation
essentially requires the Fund Manager to act as a legal advisor/regulator to the
investees.
The OIG believes that Recommendation No. 5 is still valid. The Fund Management
Agreement states that “All Fund investment . . . must comply with MCC Environment
Guidelines . . . .” Further, the Investment Policy Guidelines state that “ . . . the Fund
Manager shall develop Fund Environmental Procedures and incorporate them into the
Fund’s investment appraisal and monitoring processes . . . to ensure such compliance.”
The OIG recommendation did not require that the Fund Manager act as legal advisor to
the investees, it recommended that Fund Manager identify and document the
environmental laws, regulations, and requirements relevant to the investments for the
purpose of ensuring compliance with MCC Environment Guidelines and the Fund
Management Agreement. Because the OIG did not agree with MCC’s proposed
corrective action, a management decision was not reached.
For Recommendation No. 6, MCC agreed with the recommendation and new language
will be added to all future loan agreements regarding disclosure by investees on the
presence of asbestos; the use, trade, or sale of asbestos-containing materials; and the
removal and handling of asbestos-containing materials. The OIG considers that a
management decision was made.
For Recommendation No. 7, MCC agreed with the recommendation. MCC stated that
MCG has primary responsibility for the oversight of the GRDF and determining whether
environmental audits are required. MCC also stated that it plans to undertake periodic
monitoring this fall to review GRDF performance and its implementation of the
environmental procedures. The OIG considers that a management decision was made.
For Recommendation No. 8, MCC chose not to make a management decision on this
finding at the time. MCC will conduct additional research and will notify the OIG of its
management decision no later than six months after the issuance of the OIG’s final
report in accordance with Office of Management and Budget requirements. The OIG
considers that a management decision was not made.




                                                                                      18
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Office of Inspector General conducted this performance audit of the Georgia
Regional Development Fund (GRDF) in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. The GRDF Program is a $32.5 million fund meant to improve the
performance of small and medium businesses in Georgia. We conducted the audit at
headquarters in Washington D.C, and in Tbilisi, Mestia, Poti, Batumi, Kutaisi, Village
Noste, Republic of Georgia, during a site visit from May 15 to June 6, 2009. In addition
to meeting with Millennium Challenge Corporation (MCC) officials, we met with
enterprise fund experts from United States Agency for International Development
(USAID), Overseas Private Investment Corporation (OPIC), and World Bank in
Washington, D.C. During our site visit, we met with the MCC, Millennium Challenge
Georgia Fund (MCG), Fund Manager, beneficiaries and Government of Georgia officials.
We reviewed and evaluated relevant documents such as program planning documents,
contracts, and eight investment proposals. We also reviewed prior reports on enterprise
funds.

We examined the internal control environment by identifying and assessing the relevant
controls. Our activities included reviewing transactions and compliance with investment
guidelines.

Methodology

To answer the audit objective, we established audit steps to determine the following:

   •    Whether GRDF program investments complied with investment guidance;
   •    Whether GRDF will meet its planned targets;
   •    Whether MCC, MCG and the Fund Manager provided oversight of the
        implementation of the program;
   •    Whether the independent board provided vetting of investment projects; and
   •    Whether the Fund Manager followed the guidelines for due diligence.
Specifically, we performed the following activities:

   •    Interviewed MCC, MCG officials and the Fund Manager to gain an understanding
        of the overall program and its challenges; and
   •    Visited 75 percent of the projects in Georgia, comprising 77 percent of the dollars
        invested, as of the first quarter of 2009.




                                                                                        19
                                                                            APPENDIX II



MANAGEMENT COMMENTS




Date:          September 24, 2009

To:            Alvin Brown, Assistant      Inspector   General,   Millennium   Challenge
               Corporation

From:          Michael Casella, Acting Vice President, Administration and Finance,
               Millennium Challenge Corporation /s/

Regarding:     Response to the Draft Report on the Audit of the Georgia Regional
               Development Fund (GRDF), a Millennium Challenge Corporation
               Compact Activity in Georgia

This memorandum serves as MCC’s response to the Draft Report on the Audit of the
Georgia Regional Development Fund.

MCC appreciates the opportunity to comment at this time on the audit of this activity in
the MCC Compact with Georgia.

In considering our responses to the recommendations in the draft report, we have relied
on input from GRDF’s fund manager, SEAF, as well as internal documents written during
the due diligence and implementation processes that have shaped GRDF.

Recommendation 1: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, define development impact and
reasonable financial return and develop specific measures and targets for use in
evaluating the Georgia Regional Development Fund’s performance against its primary
objective.

Although MCC agrees that it should have articulated the objective of Georgia Regional
Development Fund (GRDF), which was defined as “to maximize developmental impact”,)
in a more specific manner, MCC has already developed specific measures and targets
for evaluating the development impact of GRDF, and therefore disagrees with
Recommendation 1 that additional measures are needed.

MCC has implicitly, if not explicitly, defined its developmental impact objective for GRDF
using specific measures and targets, including: increase in portfolio company


                                                                                       20
                                                                            APPENDIX II


employees, increase in wages paid to the portfolio company employees, increase in
gross revenues of portfolio companies, increase in local suppliers to the portfolio
companies, and increase in locally sourced goods and services purchased by the
portfolio companies. In the future, MCC will state specifically that its objective for the
development impact for projects such as the GRDF is to achieve the specific targets for
the measures defined for the project. However, MCC believes that this is clear enough
in the case of GRDF that formally redefining the objective is unnecessary.
While some indicator targets may not be met, especially in the short-term, other
developmental impact objectives may be met or exceeded in the long run. The draft
report states that one of these indicators (number of employees) is unlikely to be met in
the near term. That is due, in part, to the fact that GRDF investments have had a
different profile than was assumed at the time the objectives were set. It may not be
until end-of-Compact and post-Compact assessments are done several years from now
that MCC can assess either the net financial or the developmental impact of GRDF’s
investments.

MCC recognizes that there is no formulaic method for balancing financial outcomes
against developmental impact measurements in the determination of fund manager
bonuses. Similarly, the current bonus methodology fails to take into consideration the
effects on both financial and developmental performance of extraneous factors such as
the Russian incursion in 2008. Accordingly, by the end of October, MCC will propose a
change in fund management agreement language that will allow the GRDF board to
adjust the calculated bonus payment in consideration of such judgmental performance
factors. This will not have an impact on the existing cap for such bonuses.

Recommendation 2: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, develop and document a justification
for the compensation arrangement with the Fund Manager.

MCC disagrees with this recommendation. An analysis of the fund manager’s
compensation was conducted in 2005 and documented in a memorandum dated
January 17, 2005, copies of which were shared with the OIG team on September 10,
2009. There is no need for an additional review at this time.

The 2005 memo prepared by an MCC consultant, which is titled “Compensation
Provisions for the Manager of the Georgia Regional Development Fund: Fee and
Carried Interest” and which was completed prior to the procurement of a fund manager,
concludes that (as GRDF was a relatively small fund operating in a developing country)
the compensation structure that was proposed and subsequently included in the
procurement documents for the fund manager was not only in line with market practice,
but perhaps a little low.

The comparison to US-sponsored enterprise funds that is contained in the audit report is
inappropriate for several reasons. First, those funds were much larger. If one includes
only the funds of $100 million or less (the category in which GRDF falls), the averages
start to converge toward the compensation structure for GRDF. Furthermore, GRDF has
certain unique attributes such as the small investment size of GRDF and, more
importantly, requirements that the investments be concentrated in selected sectors in
rural areas, which make comparisons to funds with much different attributes
inappropriate. MCC was also recently told by SEAF that they won a competitive



                                                                                       21
                                                                          APPENDIX II


procurement for a fund with some of GRDF’s attributes at a higher rate of compensation
than they earn for GRDF.

Recommendation 3: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, require that the Fund Manager
develop policy and procedures for conducting character due diligence for each investee
and for documenting the results of the character due diligence.

MCC agrees with this recommendation. The fund manager already has a policy and
procedure for conducting character due diligence. However, MCC will work with
Millennium Challenge Georgia Fund (MCG) and the fund manager to strengthen existing
procedures to include enhanced documentation of the character due diligence
conducted by the fund manager as part of their due diligence and on-going anti-terrorism
name checking procedures.

MCC has had several discussions with the fund manager’s staff regarding both the
procedures that need to be amended to note the increased documentation and the
procedures that need to be followed to limit access to this information. It is currently
contemplated that only the due diligence information collected for individuals connected
with investment proposals that are forwarded to the board with a positive
recommendation will be retained in the fund manager’s files. These procedures should
be in place by the end of October 2009.

Recommendation 4: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, provide the Fund Manager with
current Millennium Challenge Corporation guidance on vetting of individuals and
organizations receiving United States taxpayer funding.

MCC agrees with this recommendation. This guidance will be forwarded to the fund
manager by September 30, 2009.

Recommendation 5: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, require that the Fund Manager
identify and document the environmental laws, regulations, and requirements relevant to
the investments.

MCC disagrees with this recommendation. As a fund manager, SEAF should not also
take on the role of legal advisor to the investees. The environmental requirements to be
met by an investee are appropriately contained in the agreements between GRDF and
the investee. The OIG's proposed approach essentially requires the fund manager to
act as advisor/regulator. It also assumes the investee companies have no knowledge or
commitment to local regulatory requirements, and completely ignores the Government of
Georgia's role in overseeing compliance through the issuance of licenses, permits, and
other activities.

The fund manager makes a reasonable effort to understand the local regulatory
environment. Depending on the relevant risks, the fund manager may utilize its
technical staff, lawyers, outside counsel and/or consultants to undertake research and
analyses, site visits, and/or interviews with potential investee owners, managers and
regulatory officials in order to understand the local regulatory environment. Where
complex issues arise, the fund manager can and does engage specialists to undertake


                                                                                     22
                                                                            APPENDIX II


more detailed analyses. This approach is consistent with best practice in fund
environmental management.

Recommendation 6: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, require that the Fund Manager
review its loan agreements with investees and specify actions in the agreements with
regard to the asbestos.

MCC agrees with this recommendation. The following language will be added to all
future loan agreements:

“The Company certifies and agrees to the following regarding asbestos:

       •   The Company certifies that SEAF has been informed of the presence of any
           asbestos on the Company premises as of the date of investment of which
           Company owners or managers are aware;
       •   The Company agrees not to allow any asbestos-containing substances to be
           brought onto the Company premises during the effective period of this
           agreement;
       •   The Company agrees not to trade or sell any asbestos containing materials
           during the effective period of this agreement;
       •   If, for any reason asbestos-containing material is present or deemed present
           on the Company premises, the Company shall notify SEAF immediately, and
           prior to any moving or removal of such asbestos-containing material shall
           receive written permission from SEAF, and such removal shall be conducted
           in compliance with any procedures set forth by SEAF.”

Recommendation 7: We recommend that the Millennium Challenge Corporation’s vice
president, Department of Compact Implementation, require periodic environmental
reviews by Millennium Challenge Georgia of the Georgia Regional Development Fund’s
investments and ensure that environmental audits are done when required.

MCC agrees with this recommendation. However, with the exception of Bazi and Doki,
GRDF investments were made in the fourth quarter of 2008. Therefore there has been
little to monitor until recently. MCG has primary responsibility for the oversight of GRDF
and determining whether audits are required in specific cases. It may also review and
comment on GRDF environmental reports and undertake site visits, as appropriate. In
addition, MCC plans to undertake periodic monitoring beginning this fall to review GRDF
performance and its implementation of the environmental procedures. We believe the
type and timing of our oversight is appropriate given the investment cycle (average age)
and the fact that GRDF is precluded from investing in environmentally sensitive
Category A projects.

Recommendation 8: We recommend that the Millennium Challenge Corporation's vice
president, Department of Compact Implementation, revise the Fund Management
Agreement Investment Policy Guidelines to include guidelines preventing investments in
investees with resources to fund their own projects.

MCC has chosen not to make a management determination on this finding at this time.
MCC needs additional time to investigate whether another banking line was available for



                                                                                       23
                                                                         APPENDIX II


this financing and how able the primary investor was to access funds from another
company in which she was a shareholder. Once this additional work is completed, MCC
will notify the OIG of its management decision, which will be no later than six months
after the issuance of the final report in accordance with the Office of Management and
Budget Circular No. A-50, Paragraph 8(a)(2).




                                                                                   24
                                               APPENDIX III



SUMMARY OF THE GEORGIA
REGIONAL DEVELOPMENT
FUND INVESTMENT
PORTFOLIO
(as of 12/31/2008)




                                  $9,000,000
     $12,700,000                                   Agribusiness
                                                   Tourism
                                  $3,300,000
                                                   Other
                     $5,000,000
                                                   Uninvested




                                                           25
                                                                APPENDIX IV



SUMMARY OF THE GEORGIA
REGIONAL DEVELOPMENT
FUND INVESTMENTS
(as of 12/31/2008)



                                                              Retail/Wholesale Supplier
                                                              Building Products
                                                              Hotel Chain

               $3,000,000           $3,000,000                Food Processing
  $2,000,000                                     $1,800,000
                                                              Poultry Farm
       $2,000,000                             $2,000,000
                    $1,500,000   $2,000,000
                                                              Hotel

                                                              Hazelnut Farming

                                                              Concrete Production

                                                              Anchovy Fishing




                                                                             26
                                                                                  APPENDIX V



PHOTOGRAPHS OF GEORGIA
REGIONAL DEVELOPMENT
FUND INVESTMENT
IMPACTS
Poultry Farm




Photographs of a poultry farm hatching egg facility financed with a $2 million GRDF investment for
renovating poultry buildings and purchases of hens, feeding equipment, and new egg processing
equipment. OIG auditor photographs taken in May 2009, Republic of Georgia.




                                                                                               27
                                                                                     APPENDIX V


Retail/Wholesale Building Supplier




Photographs of two retail outlets of the building supplier in which GRDF invested $3 million to
expand the firm’s operations. OIG auditor photographs taken in May 2009, Republic of Georgia.



Black Sea Anchovy Fishing Company




Photographs of a Black Sea anchovy fishing venture that received a GRDF investment of $3 million
to purchase ships and equipment and processing plant upgrades. OIG auditor photographs taken in
May 2009, Republic of Georgia.




                                                                                                  28
                                                                                    APPENDIX V


Mobile Concrete Company




Photographs of concrete factory equipment purchased with a GRDF investment of $2 million. The
concrete company is the first large scale production facility in western Georgia, and is intended to
meet upcoming demand for a port development in the area. OIG auditor photographs taken in May
2009, Republic of Georgia.



Georgia Hotel Chain




Photographs of a Georgian hotel chain outside of Tbilisi that received a GRDF investment of $1.8
million for construction. OIG auditor photographs taken in May 2009, Republic of Georgia.




                                                                                                   29
                                                                                     APPENDIX V


Ecotourism Hotel




Photographs of a hotel that received a GRDF investment of $1.5 million to renovate an old hotel into
a resort hotel in the Svaneti mountain region and to develop ecotourism. OIG auditor photographs
taken in May 2009, Republic of Georgia.




                                                                                                  30
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig




                                            31
